U.S. Department of Agriculture
 Office of Inspector General
     Great Plains Region
         Audit Report

 1998 Crop Loan Deficiency Payment
             Activities




                  Report No.
                  03601-17-KC
                  September 2000
                 UNITED STATES DEPARTMENT OF AGRICULTURE
                                 OFFICE OF INSPECTOR GENERAL

                                     Washington D.C. 20250



DATE:               September 29, 2000

REPLY TO
ATTN OF:     03601-17-KC

SUBJECT:     1998 Crop Loan Deficiency Payment Activities

TO:          Keith Kelly
             Administrator
             Farm Service Agency

ATTN:        T. Mike McCann
             Director
             Operations Review and Analysis Staff


This report presents the results of our nationwide audit of 1998 Crop Loan Deficiency
Payment Activities. The audit generally disclosed a need for enhanced program
controls to ensure the reasonableness of quantities claimed for program benefits. Your
September 26, 2000, response to the draft report is included as exhibit D with excerpts
and the Office of Inspector General’s position incorporated into relevant sections of the
report.

The response was considered adequate to reach management decision for 10 of the
12 audit recommendations. To reach management decision for Recommendation
No. 1, we need to be advised that FSA has taken action to provide for an annual review of
county committee yield estimates for each applicable commodity, including the proposed
timeframes for implementation. Similarly, we need a response showing the actions taken
or planned to address Recommendation No. 3, including the proposed timeframes for
implementation.

In accordance with Departmental Regulation 1720-1, please furnish a reply within 60
days describing in detail the actions taken or planned, including the timeframes for
implementation, for Recommendations Nos. 1 and 3. Please note that the regulation
requires a management decision to be reached on all findings and recommendations
within a maximum of 6 months from report issuance.
Keith Kelly                                                                   2


We appreciate the courtesies and cooperation extended to us by members of your staff
during the audit.



/S/
JAMES R. EBBITT
Assistant Inspector General
    for Audit
                       EXECUTIVE SUMMARY
                        FARM SERVICE AGENCY
            1998 CROP LOAN DEFICIENCY PAYMENT ACTIVITIES
           WASHINGTON, D.C. AND SELECTED FIELD LOCATIONS

                           REPORT NO. 03601-17-KC


                                      The Farm Service Agency (FSA), on behalf of
     RESULTS IN BRIEF                 the Commodity Credit Corporation (CCC),
                                      administers the Loan Deficiency Payment
                                      (LDP) provisions applicable to wheat, corn,
         grain sorghum, barley, oats, soybeans, minor oilseeds, rice, upland cotton,
         and extra long staple cotton. These provisions provide producers with an
         opportunity to claim loan deficiency payments in lieu of securing price
         support loans on eligible commodities as a tool to minimize the delivery of
         loan collateral to CCC. For the 1998 crop year, the LDP provisions
         exploded into a $2.7 billion dollar program. The purpose of our review was
         to determine whether 1998 crop LDP activities were administered in
         accordance with applicable laws and regulations.

           The audit disclosed the existence of erroneous LDP and price support loan
           disbursements totaling $333,785.01 to 106, or about 32 percent, of the 336
           producers included in our review (see exhibit A). Based on the audit results,
           we concluded that FSA needed to take aggressive action to strengthen or
           fully implement existing program controls. FSA required each county
           committee (COC) to annually establish reasonable yield estimates for each
           applicable commodity based on local crop and weather conditions. In cases
           where the yields claimed for LDP benefits appeared to exceed the
           associated yield estimates, COC’s were required to base benefit amounts
           on yields that it determined could be reasonably produced on the eligible
           acreage. For the 18 counties visited, we identified 5,305 cases where the
           benefit amounts were based on yields that appeared to exceed the
           associated COC yield estimates. In each case, it appeared that further
           review by the COC would have been appropriate. As noted above, the
           procedures for determining county yield estimates were dependent on COC
           knowledge of local crop and weather conditions as opposed to historical
           yield data. However, we found that 16 COC’s used other methods to
           establish these yields. Also, another COC established the cotton yield so
           high that no reviews of individual yields needed to be performed. In addition,
           the required reviews of applicable yields were not always performed or
           effectively performed.



USDA/OIG-A/03601-17-KC                                                            Page i
           FSA personnel did not conduct timely spot-checks of farm-stored loans
           and/or LDP’s in 6 of 18 counties reviewed. High volumes of requests and
           complicated program requirements contributed to focusing on the
           disbursement of payments. Also, one CO improperly allowed producers to
           receive higher cotton LDP’s based on a misinterpretation of procedure. That
           CO was selected for review because of the high volume of 1998 crop cotton
           LDP activity.

                                      We recommended that FSA provide more
 KEY RECOMMENDATIONS                  specific guidance to committees on the
                                      development of county established yields,
                                      including the possible use of National
        Agricultural Statistics Service (NASS) average yield data and a review by
        State committees. Also, we recommended that FSA develop and implement
        an automated reasonableness test as a tool to readily identify maximum
        eligible quantities and those requests that appear to exceed the county
        established yields for additional review. We also recommended that FSA
        emphasize the need for timely spot-checks of LDP’s and collect or pay the
        amounts due producers who received incorrect LDP amounts.

                                    The agency’s written comments on the draft
       FSA RESPONSE                 report (see exhibit D) showed general
                                    concurrence with the audit findings and
                                    recommendations. However, the response did
          not adequately address Recommendation No. 1 or provide any comments
          regarding Recommendation No. 3.

                                       The agency response to the draft report was
        OIG POSITION                   considered adequate to reach management
                                       decision     for    10    of the 12     audit
                                       recommendations. The information needed to
          reach management decision for Recommendations Nos. 1 and 3 has been
          incorporated into the relevant sections of the report.




USDA/OIG-A/03601-17-KC                                                        Page ii
                                         TABLE OF CONTENTS

EXECUTIVE SUMMARY............................................................................................................i
   RESULTS IN BRIEF ...............................................................................................................i
   KEY RECOMMENDATIONS ................................................................................................ii
   FSA RESPONSE....................................................................................................................ii
   OIG POSITION.........................................................................................................................ii
INTRODUCTION.........................................................................................................................1
   BACKGROUND......................................................................................................................1
   OBJECTIVES..........................................................................................................................2
   SCOPE .....................................................................................................................................2
   METHODOLOGY ....................................................................................................................2
FINDINGS AND RECOMMENDATIONS................................................................................4
   CHAPTER 1.............................................................................................................................4
   IMPROVED PROGRAM OPERATIONS ARE NEEDED .................................................4
   FINDING NO. 1 ........................................................................................................................4
   ADDITIONAL GUIDANCE AND DIRECTION OVER ESTABLISHMENT OF
   COUNTY AVERAGE YIELDS IS NEEDED .......................................................................4
   RECOMMENDATION NO. 1 .................................................................................................6
   RECOMMENDATION NO. 2 .................................................................................................7
   FINDING NO. 2 ........................................................................................................................7
   CO PERSONNEL DID NOT ALWAYS ASSESS THE REASONABLENESS OF
   YIELDS CLAIMED FOR PROGRAM BENEFITS .............................................................7
   RECOMMENDATION NO. 3 .................................................................................................9
   RECOMMENDATION NO. 4 .............................................................................................. 10
   RECOMMENDATION NO. 5 .............................................................................................. 10
   RECOMMENDATION NO. 6 .............................................................................................. 10
   RECOMMENDATION NO. 7 .............................................................................................. 11
   RECOMMENDATION NO. 8 .............................................................................................. 11
   FINDING NO. 3 ..................................................................................................................... 12


USDA/OIG-A/03601-17-KC                                                                                                              Page iii
   SECOND-PARTY REVIEWS ARE NEEDED................................................................. 12
   RECOMMENDATION NO. 9 .............................................................................................. 14
   FINDING NO. 4 ..................................................................................................................... 15
   NONCOMPLIANCE WITH LDP SPOT-CHECK REQUIREMENTS .......................... 15
   RECOMMENDATION NO. 10............................................................................................ 15
   FINDING NO. 5 ..................................................................................................................... 16
   NONCOMPLIANCE WITH COTTON REQUIREMENTS.............................................. 16
   RECOMMENDATION NO. 11............................................................................................ 17
   RECOMMENDATION NO. 12............................................................................................ 18
   EXHIBIT A - SUMMARY OF MONETARY RESULTS................................................... 19
   EXHIBIT B – AUDIT SITE LOCATIONS.......................................................................... 20
   EXHIBIT C – AUDIT SCOPE DATA................................................................................. 21
   EXHIBIT D – FSA RESPONSE TO THE DRAFT REPORT ........................................ 22
ABBREVIATIONS ................................................................................................................... 26




USDA/OIG-A/03601-17-KC                                                                                                        Page iv
                             INTRODUCTION

                                      Sections 131 through 136 of the Federal
       BACKGROUND                     Agriculture Improvement and Reform Act of 1996
                                      (the Act) provides requirements for a
                                      Nonrecourse Marketing Assistance Loan and
         LDP Program on 16 commodities for the 1996 through 2002 crop years. The
         FSA has responsibility for program administration.

           The Act provided that eligible producers could request price support loan or
           LDP benefits on eligible commodities from the date of harvest through the final
           loan availability date. To be eligible for program benefits for 1998
           commodities, the producer must have beneficial interest in the commodity at
           the time of request. Also, producers who request benefits on program crops
           must have an approved Production Flexibility Contract on file and provide an
           acreage report, which shows the acres planted to each crop.

           The Act also provided that nonrecourse marketing assistance loans could be
           repaid at less than the principal plus accrued interest and other charges when
           the posted county price was less than the applicable county loan rate.
           Alternatively, producers could elect to obtain an LDP in lieu of a nonrecourse
           marketing assistance loan.

           The nonrecourse marketing assistance loan repayment and LDP provisions
           are intended to minimize the delivery of price support loan collateral to the
           CCC through loan forfeitures. The LDP rates for each county are determined
           by commodity on a daily basis and represent the difference between the
           applicable county loan rates and the associated posted county price. The
           posted county prices for each eligible commodity are generally determined by
           adjusting the daily terminal market prices for the transportation and other costs
           associated with moving a commodity from a local warehouse to the terminal
           market location. For example,

                          Loan Rate                     $ 1.85
                          CCC Posted County Price       $ 1.80
                          LDP Rate                $ .05

           The LDP rate for LDP’s requested after harvest for 1998 crops was the rate in
           effect for the county where the commodity was stored on the day the request
           was approved. With the high volume of requests received by FSA for 1998,
           the LDP approval date may have been later than the actual request date. LDP
           activity was minimal prior to the 1998 crop year because market prices were

USDA/OIG-A/03601-17-KC                                                            Page 1
           generally higher than the established county loan rates. However, program
           records showed that 1998 crop LDP benefits totaled about $2.7 billion as of
           November 2, 1999.

                                    The primary audit objective was to determine
        OBJECTIVES                  whether 1998 crop LDP activities were
                                    administered in accordance with applicable laws
                                    and regulations. This included an assessment as
         to the adequacy of controls designed to ensure producer eligibility and the
         reasonableness of production quantities claimed and disbursements made.

                                       The audit included a review of 1998 crop LDP
            SCOPE                      activities in 8 State and 18 county FSA offices
                                       (CO) (see exhibit B).         The States were
                                       judgmentally selected based on discussions with
           agency personnel and a review of agency reports showing the volume of 1998
           crop LDP benefits by State and crop. We generally selected States with high
           volumes of LDP activity that disbursed payments on a variety of eligible
           commodities. The review was initiated in May 1999 and completed in
           December 1999.

           The counties were judgmentally selected based on discussions with State
           FSA Office (STO) personnel and an analysis of agency data showing the
           volume of 1998 crop LDP activity by county. We generally selected counties
           with high volumes of 1998 crop LDP benefits on different commodities.

           The audit included a review of supporting program records for 336 of 26,439
           producers who had received LDP and/or price support loan benefits at the
           time of our review. The sample included 255 producers who claimed program
           benefits on yields that appeared to exceed the county established yields. The
             universe of those producers (5,305) represented about 20 percent of
           the 26,439 producers who received program benefits in the counties visited at
           the time of our review. See exhibit C for detail sample and universe data.

           The audit was conducted in accordance with Government Auditing Standards.

                                    To accomplish the audit objectives, we
      METHODOLOGY                   interviewed FSA personnel at the national office
                                    located in Washington, D.C., and the selected
                                    audit sites.
         At the STO’s, we interviewed agency officials and conducted limited reviews
         of program records related to 1998 crop LDP activities. We also contacted
         State officials of the NASS to obtain 1998 crop yield data for the States
         visited.




USDA/OIG-A/03601-17-KC                                                         Page 2
           At the CO’s, we used software applications developed by a FSA employee to
           select a judgmental sample of producers for review. We selected our sample
           from lists of producers who (1) received program benefits on yields that
           appeared to exceed the county established yields, (2) appeared to claim
           program benefits on the same quantity of a commodity more than once, and/or
           (3) appeared to be ineligible for program benefits based on the eligibility flag
           settings in the automated system.

           When selecting the sample producers, we attempted to include those who had
           submitted final production evidence, at least one CO employee and COC
           member who had requested 1998 crop LDP benefits at the time of our review,
           and at least one producer who had filed a field direct LDP. Producers who
           deliver commodities directly from the field to a processor, buyer, warehouse,
           or cooperative use field direct LDPs. In those cases, the LDP benefits are
           based on the rate in effect on the date of delivery. We also included
           producers who claimed benefits on yields that appeared to be significantly
           higher than the associated county average yields and those who appeared to
           receive duplicate benefits on delivered production quantities.

           For the producers reviewed, we measured certified LDP’s and contacted
           warehouses to verify delivered quantities that had been claimed for program
           benefits at the time of our review on an as needed basis. In addition, we
           compared the quantities claimed for LDP benefits to the quantities
           determined for crop insurance purposes. For each sample producer, our
           review included an analysis of the documentation contained in the supporting
           LDP files and associated price support loan and production adjustment
           records. This included interviews with producers on an as needed basis.

           We also issued Statements of Conditions to each STO visited during the audit
           to provide details on the conditions noted during our review. We also asked
           each STO for a written response to the Statement of Conditions provided.
           This data has also been provided to the FSA national office Price Support
           Division personnel.




USDA/OIG-A/03601-17-KC                                                           Page 3
            FINDINGS AND RECOMMENDATIONS


CHAPTER 1          IMPROVED PROGRAM OPERATIONS ARE
                   NEEDED


            The audit generally disclosed that needed controls had been prescribed.
            However, we found that some controls had not been applied while others
            needed to be improved. For example, FSA uses a COC established yield for
            each commodity as a tool to determine whether a producer’s claim is
            reasonable or needs further review. Yields claimed for program benefits that
            exceed the COC established yield are to be reviewed by the COC for
            reasonableness. However, we found that the procedures for establishing the
            county yields were not consistently applied and did not require the
            consideration of historical yield data. In addition, the required COC reviews
            were not always performed. Also, CO personnel made errors when
            processing LDP requests and did not perform timely spot-checks as required.
             Finally, personnel at one CO misinterpreted procedures which allowed some
            producers requesting cotton LDP’s to obtain excessive benefits.

                                   The procedures for establishing county yields did
      FINDING NO. 1                not provide reasonable assurance that such
                                   yields would reflect actual crop yields. We
                                   concluded that this condition existed, in part,
ADDITIONAL GUIDANCE AND because the procedures did not require COC’s to
     DIRECTION OVER                consider historical yield data when establishing
                                   such yields. Also, the agency did not require a
   ESTABLISHMENT OF                review of such yields at the STO level as a tool to
 COUNTY AVERAGE YIELDS             ensure their reasonableness. As a result, an
        IS NEEDED                  associated program control did not effectively
                                   serve its intended purpose. Also, STO personnel
                                   were not aware of differences in the
         methodologies used to establish such yields or the unreasonably high nature
         of some yields.

            FSA Handbook 6-LP, paragraph 307, requires COC’s to annually determine
            reasonable estimates of yield for each commodity based on crop and weather
            conditions in the county; document the determination in the COC minutes and
            review questionable applications. If the quantity offered for loan or LDP is not
            reasonable based on the COC established yield, do not approve the loan or


USDA/OIG-A/03601-17-KC                                                            Page 4
           LDP for a quantity exceeding the quantity COC determines could have been
           reasonably produced on the eligible acreage.

           To be eligible for LDP, the quantity of commodity must have been produced by
           an eligible producer, must not have been previously pledged as collateral for a
           loan and repaid with cash at a rate less than the principal plus interest and
           must not have previously received LDP.

           We found that COC’s in the counties reviewed generally determined a county
           established yield for each crop grown in the county. However, we found that
           one COC (Lincoln County, Washington) established an individual yield for
           each producer. This was accomplished by multiplying the 1985 farm payment
           yields for each producer by 160 percent. Similarly, our visit to the Illinois FSA
           STO disclosed that about 15 counties established individual producer yields
           by factoring previously established farm yields.

           The audit also disclosed that the county established yields at two of the three
           sample CO’s in Missouri were at least twice the associated NASS yields as
           shown in the following table:

                                                        COUNTY
                                        UNIT OF       ESTABLISHED      NASS
              COUNTY       CROP         MEASURE          YIELD         YIELD    DIFFERENCE
             Daviess       Corn         Bushels           225.0        110.0      115.0
                           Grain
                         Sorghum     Hundredweight        160.0         75.3       84.7
             Stoddard     Cotton        Pounds          1,000.0        466.0      534.0
                           Grain
                         Sorghum        Bushels           140.0         65.5       74.5
                         Soybeans       Bushels            60.0         29.4       30.6

           In Stoddard County, Missouri, we did not identify any producers who claimed
           benefits on cotton yields exceeding the county established yield of 1,000
           pounds per acre. We concluded that this situation might have existed, in part,
           because of the 534-pound difference between the county established yield
           (1,000 pounds per acre) and the associated NASS average yield (466
           pounds per acre). Similarly, we found that the established corn yields for 86 of
           89 Missouri counties exceeded the associated 1998 crop NASS yields. We
           noted that the establishment of unreasonably high yields would significantly
           limit the number of cases that would need to be reviewed for a
           reasonableness determination and thus, bypass the control.

           We also found that STO personnel in seven of the eight States reviewed did
           not conduct reviews of the county established yields as a tool to assess the
           reasonableness of such yields. This condition existed, in part, because such
           reviews were not required even though headquarters officials indicated this
           was a STO responsibility. In Missouri, STO personnel did conduct a review of
           such yields. However, it did not appear that the review was entirely effective

USDA/OIG-A/03601-17-KC                                                            Page 5
           based on the audit results.

           We concluded that setting the established yield and providing for a
           subsequent COC review of those exceeding the established yield was a
           primary control and that inconsistent application of this control did not promote
           the fair and equitable treatment of producers.

           CO’s are not required to use NASS yield data to establish county yields.
           Personnel in the Missouri STO also noted that NASS yield data for the latest
           crop year would generally not be available for the current program year.
           However, we believe that historical NASS yield data could be a valuable yield
           resource. Also, the data is used by FSA for farm loan planning purposes.

           We concluded that the use of historical NASS yield data, coupled with an
           annual review of the individual county established yields by the STO’s, could
           be used to ensure that such yields were established at reasonable levels. The
           establishment of reasonable yields would also promote the identification of
           individual yields that needed to be referred to the COC for review (see also
           Finding No. 2). In addition, the use of a consistent methodology for
           determining county established yields should promote the fair and equitable
           treatment of producers.

                                         Develop and implement controls to ensure the
 RECOMMENDATION NO. 1                    reasonableness of COC established yields
                                         including an annual review by the State
                                         Committee or STO personnel of the established
           yields.

           FSA Response

           The written comments on the draft report (see exhibit D) showed that FSA
           Handbook 8-LP, subparagraph 536 C, was amended in May 2000 to provide
           for a State Committee review of COC yield determinations to ensure
           accuracy.

           OIG Position

           The handbook amendment applied to a review of the yield determinations
           made in conjunction with commodities that were harvested as other than grain
           rather than the COC yield estimates referred to in subparagraph 132 B of FSA
           Handbook 8-LP. In order to reach management decision, we need to be
           advised that STO’s will be required to provide for an annual review the COC
           established yields for reasonableness.




USDA/OIG-A/03601-17-KC                                                            Page 6
                                          Provide additional guidance and direction over
 RECOMMENDATION NO. 2                     the determination of county established yields
                                          including the use of NASS data to facilitate such
                                          determinations.

            FSA Response

            The written comments on the draft report (see exhibit D) showed that FSA
            would consider using NASS data to help provide guidance and direction over
            the establishment of county yields. The written comments also showed that
            FSA planned to implement the recommendation in the 2001 crop year.

            OIG Position

            We concur with the management decision.

                                      CO personnel did not always determine whether
       FINDING NO. 2                  producers could have reasonably produced the
                                      quantity claimed for program benefits when a
                                      yield appeared to exceed the county established
  CO PERSONNEL DID NOT                yield. CO personnel generally advised us that the
   ALWAYS ASSESS THE                  timely disbursement of program benefits was
                                      considered a higher priority than completion of
   REASONABLENESS OF                  these determinations. We also concluded that
   YIELDS CLAIMED FOR                 few counties wanted to review these cases as
    PROGRAM BENEFITS                  any delay in approval would result in a different
                                      LDP rate because the LDP rate was the rate in
                                      effect on the date of approval for 1998
          commodities. As a result, the CO’s missed opportunities to prevent
          erroneous LDP and price support loan disbursements totaling $112,332.39
          ($96,008.57 in overpayments plus $16,323.82 in underpayments)
          and $102,304.12, respectively to 62 producers included in our review.
          Also, the LDP benefits paid to 5,305 of the 26,439 producers in the 18
          counties visited would have required a COC review prior to payment approval
          (see exhibit C).

            FSA Handbook 6-LP, paragraph 307, provides, in part, that COC’s should not
            approve requests for loans or LDP benefits on quantities exceeding those that
            could be reasonably produced based on the COC established yield.
            Paragraph 348 also provides that duplicate benefits on the same commodity
            are not authorized. Paragraph 2 further provides that CO personnel are
            responsible for ensuring that the beneficial interest requirements are met.
            Also, paragraph 17, provides, in part, that beneficial interest remains with the
            producer if they have (1) control of the commodity, (2) risk of loss, and (3) title
            to the commodity.



USDA/OIG-A/03601-17-KC                                                               Page 7
           Our review of supporting program records and collateral verifications for a
           judgmental sample of 336 producers disclosed that COC personnel missed
           opportunities to detect erroneous claims for LDP benefits because the
           required reasonableness determinations were not made or were not entirely
           effective. For example, we identified 24 producers who received excess
           program benefits of $24,909.79 by submitting duplicate production evidence.
           In some cases, the producers used a copy of the same warehouse settlement
           sheet to claim LDP benefits on more than one occasion. We identified 10 of
           the 24 producers through one of the software applications we used to select
           producers for review. We also found that a comparison of the production
           evidence used to support the individual LDP requests could have readily
           identified the existence of duplicate production evidence in each case.

           We also identified three other producers who received LDP benefits totaling
           $8,101.15 for quantities of commodities that were also pledged as collateral
           for price support loans at the time of the LDP requests. Our field visit to the
           farm to measure the commodity under loan disclosed that one of the
           producers had disposed of 50,000 bushels of corn without prior CO
           authorization. The collateral had a loan value of $88,186.28. Each one of
           these producers claimed LDP or loan program benefits based on yields that
           appeared to exceed the county established yield.

           For 17 other producers, we identified differences in the quantity and/or share
           data used to determine the LDP benefit amounts versus that shown on other
           FSA and/or crop insurance records. These included the supporting Forms
           CCC-666 LDP, Loan Deficiency Payment Application and Certification,
           and/or copies of the production evidence. For example, a producer in Texas
           County, Oklahoma, received LDP benefits of $7,112.81 based on a 100
           percent interest in 21,805.06 bushels of 1998 crop corn produced on one
           farm. This occurred even though Form FSA-578, Report of Acreage, showed
           that the producer only had a two-thirds interest in the 1998 crop corn harvested
           from that farm. As a result, the producer received excess program benefits of
           $2,370. Again, we noted that a review of the associated form FSA-578 could
           have readily identified that the producer had requested an LDP on a quantity
           not supported by his share and acreage. Similar conditions were noted for 16
           other producers included in our review and resulted in over and
           underpayments totaling $19,820.11 and $16,323.82, respectively.

           We also identified 17 producers who received LDP and loan benefits of
           $40,766.19 and $14,117.84, respectively, even though they did not meet the
           beneficial interest requirements. For example, a producer in Dallam County,
           Texas, received LDP benefits of $4,499.05 on July 16, 1998, for 74,984.7
           bushels of 1998 crop wheat that were delivered to a local feedlot between
           June 20 and July 2, 1998. The LDP payment was disbursed on July 16, 1998,
           even though the feedlot records showed that settlement with the producer was
           based on the date of delivery to the feedlot. We concluded that the producer


USDA/OIG-A/03601-17-KC                                                           Page 8
           did not have beneficial interest in the commodity at the time of the request for
           LDP benefits. Some producers admitted that they claimed LDP benefits on
           prior year crops. We found that 14 of these 17 producers claimed LDP
           benefits on yields that appeared to exceed the county established yield.

           Our collateral verifications also disclosed that one producer had requested
           LDP benefits on a commodity that was not planted on the farm. As a result,
           the producer received ineligible program benefits of $41.33.

           FSA recognized a need for the COC to determine what could have been
           reasonably produced as a control. However, we believe that the manual
           nature of the control severely limited its effectiveness from a program
           administration standpoint. For 1998, CO personnel could run a price support
           query that calculated a production quantity for each eligible commodity in
           which the producer had a 1998 cropping interest within the county. The
           production quantities were determined by multiplying the applicable county
           established yield by the producer’s share of the 1998 acreage planted to the
           commodity. However, the effectiveness of the reasonableness test was
           dependent on CO personnel maintaining a running balance of the remaining
           eligibility quantity. This was generally accomplished by deducting the quantity
           claimed for LDP or price support loan benefits from the remaining eligible
           quantity shown on a ledger sheet prepared for each producer. Limited
           resources in some CO’s as well as high volumes of LDP requests resulted in
           some counties abandoning the reasonableness determination process.

           As a control, the importance of conducting the required reasonableness
           determination should not be minimized. We also believe that its effectiveness
           as a program control will be dependent on the extent to which the process can
           be automated under future operations.

                                        Develop and automate a reasonableness test to
 RECOMMENDATION NO. 3                   readily identify production quantities that exceed
                                        the county established yield prior to application
                                        approval.

           FSA Response

           The written comments on the draft report (see exhibit D) did not contain any
           information for this recommendation.

           OIG Position

           To reach management decision, we need to be advised that FSA has
           implemented or developed plans to implement the audit recommendation,
           including the planned timeframes for implementation.



USDA/OIG-A/03601-17-KC                                                            Page 9
                                Instruct STO’s to reemphasize that all LDP
 RECOMMENDATION NO. 4           requests exceeding the quantity that could have
                                been reasonably produced (county established
                                yield) will be reviewed by the COC prior to
       application approval. Specify that this COC determination will not be
       delegated.

           FSA Response

           The written comments on the draft report (see exhibit D) showed that FSA
           planned to formally remind CO’s of their responsibilities to ensure the
           reasonableness of claimed production quantities by December 2000.

           OIG Position

           We concur with the management decision.

                                  Direct STO’s to instruct the CO’s reviewed to
 RECOMMENDATION NO. 5             submit the questioned cost cases cited in the
                                  individual Statements of Condition to the COC’s
                                  for their determinations as to action to be taken
       and provide the STO’s with the results of the individual COC determinations
       together with copies of any written payment demands issued as a result of
       such determinations.

           FSA Response

           The written comments on the draft report (see exhibit D) showed that FSA
           planned to notify the STO’s of their responsibilities for addressing the audit
           recommendation by December 2000.



           OIG Position

           We concur with the management decision.

                                      Direct STO’s to instruct the CO’s reviewed to
 RECOMMENDATION NO. 6                 obtain the needed documentation for the
                                      unsupported cost cases cited in the individual
                                      Statements of Condition. For those situations
       where the needed documentation is not available, refer the cases to the
       COC’s for their determinations as to action to be taken and provide the STO’s
       with the results of the individual COC determinations together with any written
       payment demands issued as a result of such determinations.



USDA/OIG-A/03601-17-KC                                                         Page 10
            FSA Response

            The written comments on the draft report (see exhibit D) showed that FSA
            planned to notify the STO’s of their responsibilities for addressing the audit
            recommendation by December 2000.

            OIG Position

            We concur with the management decision.

                                    Direct STO’s to instruct the CO’s reviewed to
 RECOMMENDATION NO. 7               submit the remaining cases cited in the individual
                                    Statements of Condition to the COC’s for their
                                    determinations as to the action to be taken and
       provide the STO’s with the results of the individual COC determinations.

            FSA Response

            The written comments on the draft report (see exhibit D) showed that FSA
            planned to notify the STO’s of their responsibilities for addressing the audit
            recommendation by December 2000.

            OIG Position

            We concur with the management decision.

                                        Provide for an annual reconciliation of LDP
 RECOMMENDATION NO. 8                   benefits that are based on unreasonable yields
                                        effective for the 1999 and subsequent program
                                        years.




            FSA Response

            The written comments on the draft report (see exhibit D) showed that FSA
            would need time to develop a procedure for conducting an annual
            reconciliation of LDP benefits. The response also showed that the earliest
            implementation date would be late 2001.

            OIG Position

            We concur with the management decision.




USDA/OIG-A/03601-17-KC                                                          Page 11
                                     CO personnel did not always comply with
     FINDING NO. 3                   program requirements pertaining to requests for
                                     LDP benefits. These included requirements
                                     pertaining to the processing of late-filed acreage
 SECOND-PARTY REVIEWS                reports, producer eligibility for program benefits,
      ARE NEEDED                     follow-up on shortages noted during spot-checks,
                                     signatures on forms CCC-666 LDP, and
                                     incorrect certifications. CO personnel generally
                                     advised us that the errors were caused by
        oversight and the use of temporary employees due to the extremely heavy
        workload. As a result, we identified questioned and unsupported LDP
        benefits totaling $10,398.26 and $12,710.42, respectively for 22 producers in
        8 CO’s. We also identified two underpayments totaling $435 at one of the
        CO’s.

            FSA Handbook 6-LP, paragraph 2, provides, in part, that CO personnel are
            responsible for determining that LDP computations and payments are based
            on handbook procedures. However, the procedures do not specifically
            provide for the use of second-party reviews as a program control. We
            concluded that such reviews could have been used to identify the following
            errors:

            Questioned Costs

               §   Five producers received excess LDP benefits totaling $2,484.74
                   because CO personnel divided the number of pounds produced by 10
                   rather than 100 to determine the amount of 1998 crop grain sorghum
                   benefits due (FSA Handbook 2-LP paragraph 600). The county
                   executive director advised us that the errors might have resulted from
                   the use of temporary help.

               §   One case was found in which CO personnel did not deny LDP benefits
                   of $7,680 for 1998 crop corn that was harvested from a
                   nonparticipating farm. FSA Handbook 6-LP, paragraphs 300 and 301,
                   provide, in part, that LDP’s are available to producers who have
                   produced contract commodities on farms which are enrolled on a
                   CCC-478 according to FSA Handbook 1-PF. CO personnel advised
                   us that they forgot to check the eligibility flags in the automated system
                   prior to processing the payment.

               §   One producer’s payment was computed using an incorrect terminal
                   market rate ($1.81 rather than $2.09) to determine the adjusted price
                   for the Gulf market on September 15, 1998 (FSA Notice LP-1648,
                   dated June 10, 1998). As a result, the LDP benefits were overstated
                   by $206.82.



USDA/OIG-A/03601-17-KC                                                            Page 12
             §   One producer received a refund of liquidated damages of $26.70 that
                 the COC improperly approved (FSA Handbook 7-LP, paragraph 525).
                 The COC advised us they thought that a change in program procedures
                 authorized this action as they did not believe it was fair to require
                 liquidated damages for some producers when the procedures changed
                 and did not require liquidated damages for others. After the
                 procedures changed, the committee had county personnel refund the
                 liquidated damages that were assessed prior to the procedure change.

           Unsupported Costs

             §   Six producers submitted late-filed acreage reports; however, CO
                 personnel did not conduct field inspections to verify the existence of
                 applicable 1998 crops prior to the disbursement of unsupported LDP
                 benefits totaling $3,629.68 (FSA Notice LP-1655, dated July 2, 1998).
                 CO personnel said the errors were caused by oversight.

             §   Three producers received LDP benefits totaling $2,818 even though
                 the claimed yields exceeded the county established yields and did not
                 appear to be adequately supported (FSA Handbook 6-LP, paragraph
                 307).

             §   One case was found in which CO personnel disbursed 1998 crop corn
                 LDP benefits of $5,939.09 to a producer who did not file an associated
                 Form FSA-578, Report of Acreage, as required by FSA Handbook 6 -
                 LP paragraph 302. CO personnel advised us that they forgot to look at
                 the associated form FSA-578 in this case.

             §   One case was found where CO personnel did not ensure that the
                 producer’s signature was on the supporting form CCC-666 LDP due to
                 oversight (FSA Handbook 6-LP, paragraph 354). As a result, the
                 producer obtained LDP benefits of $297.98 that were not adequately
                 supported.

             §   One producer was disbursed soybean LDP benefits of $25.67 even
                 though the producer did not report an interest in any 1998 crop
                 soybeans (FSA Handbook 6-LP, paragraph 302). CO personnel
                 advised us that the error was caused by oversight.

             §   One case was found where the CO personnel did not timely follow-up
                 on a shortage noted during an LDP spot-check as required by FSA
                 Handbook 7-LP, paragraph 506. As a result, the CO did not have
                 reasonable assurance that the associated LDP benefits were
                 adequately supported. Program records showed that CO personnel
                 discovered the shortage (16,889 bushels) on May 6, 1999. As of July
                 28, 1999, the only action taken to resolve the discrepancy was a phone


USDA/OIG-A/03601-17-KC                                                      Page 13
                   call to the producer on the spot-check date. During the phone call, the
                   producer advised FSA personnel that the grain had been moved to
                   another location. CO personnel advised us that the limited availability
                   of time and resources had prevented them from performing the needed
                   follow-up       at       the       time      of       our      review.

            Other Errors

               §   One producer’s records were not updated by CO personnel to show
                   cancellation of a duplicate LDP benefit of $15,581.95 (FSA Handbook
                   7-CN, paragraph 490). If not corrected, the amount reported to the
                   Internal Revenue Service will be overstated. CO personnel advised us
                   that the error was caused by oversight.

               §   One case was found where CO personnel disbursed an additional LDP
                   rather than correct the original LDP as required by FSA Handbook 7-
                   LP, paragraph 14. CO personnel advised us that they were not familiar
                   with the correction procedure.

               §   Two producers were underpaid $435 as the result of an automated
                   payment limitation reduction that did not appear to be supported (FSA
                   Handbook 7-LP, paragraph 909). CO personnel could not explain the
                   reason for the error but did disburse the additional amounts due during
                   the audit.

            Please note that Audit Recommendation Nos. 5, 6, and 7 also apply to the
            monetary amounts cited in this audit finding.

                                     Require second-party reviews of application and
 RECOMMENDATION NO. 9                payment data as well as developing a checklist to
                                     assist the second-party reviewer in completing
                                     the review. Also, issue a notice summarizing the
       conditions noted in this report as a tool to prevent their recurrence under future
       operations.

            FSA Response

            The written comments on the draft report (see exhibit D) showed that FSA
            would reemphasize the importance of second-party reviews and summarize
            the conditions cited in the audit report at a tool to prevent their recurrence
            under future operations. The response also showed a target implementation
            date of December 2000.

            OIG Position

            We concur with the management decision.


USDA/OIG-A/03601-17-KC                                                         Page 14
                                      FSA personnel at six CO’s in four States
     FINDING NO. 4                    reviewed did not conduct monthly spot-checks of
                                      1998 crop farm-stored LDP’s and/or loans as
                                      required. Also, STO personnel did not conduct
NONCOMPLIANCE WITH LDP semiannual reviews of CO spot-check folders as
     SPOT-CHECK                       a tool to ensure that CO personnel were carrying
                                      out their assigned spot-check responsibilities
    REQUIREMENTS                      and that identified problems were promptly acted
                                      upon. CO personnel generally advised us that the
                                      disbursement of program benefits was
        considered a higher priority than timely completion of the subject spot-checks.
         As a result, the agency did not have reasonable assurance that producers
        were accurately certifying the quantities of farm-stored production claimed for
        program benefits.

            FSA Handbook 7-LP, paragraph 500, provides, in part, that CO personnel are
            to make onsite spot-checks of a random sample of farm-stored loans and
            LDP’s on a monthly basis. Paragraph 505 further provides that STO’s are
            required to conduct semiannual reviews of CO spot-check folders to ensure
            that they are being timely performed and that identified problems are timely
            and properly acted upon.

            We found that 6, or about 33 percent, of the 18 CO’s visited in conjunction with
            the audit did not conduct monthly spot-checks of farm-stored loans and/or
            LDP’s. STO personnel generally indicated that the timely disbursement of
            LDP benefits was a top priority. This, in turn, limited the extent of staff
            resources that could be devoted to other program areas such as spot-checks.


            Also, personnel at two (Iowa and Missouri) of the eight STO’s visited had not
            conducted semiannual reviews of CO spot-check folders as required. STO
            personnel thought their reviews of the Monthly Spot-Check Performance
            Reports submitted by CO’s satisfied the handbook requirement. However,
            this may have prevented the Missouri FSA STO from becoming aware of a
            case where personnel in the Daviess CO had not timely followed up on a
            16,900 bushel shortage noted during an LDP spot-check.

                                   Instruct the STO’s to issue a notice reminding
 RECOMMENDATION NO. 10             CO’s of their responsibilities for completing and
                                   documenting the results of random spot-checks
                                   of farm-stored LDP’s on a monthly basis as
       required and to provide for timely follow-up on any noted differences. Also,
       instruct STO personnel to conduct semiannual reviews of CO spot-check
       folders as required.



USDA/OIG-A/03601-17-KC                                                           Page 15
            FSA Response

            The written comments on the draft report (see exhibit D) showed that FSA
            planned to issue procedures to address the audit recommendation by
            February 2001.

            OIG Position

            We concur with the management decision.

                                     Personnel at one CO (Stoddard County,
     FINDING NO. 5                   Missouri) improperly allowed producers to
                                     complete Forms CCC-Cotton AA, Upland Cotton
                                     Producer’s       Loan      Deficiency     Payment
  NONCOMPLIANCE WITH                 Applications  and   Certifications, for the  same
 COTTON REQUIREMENTS                 cotton bales   that were   included  on previously
                                     completed Forms CCC-709, Direct Loan
                                     Deficiency Payment Agreements. CO personnel
                                     said they thought that Amendment 40 to FSA
        Handbook 7-CN permitted this action. This occurred even though other
        handbook instructions specifically prohibited such action. As a result, we
        identified over and underpayments totaling $71,065.60 and $11.17
        respectively, to 7 of 8 cotton producers included in our review. We also
        identified over and underpayments totaling about $23,637.10 and $890.95
        respectively, to 15 other producers with interests in the cotton LDP’s referred
        to above (see exhibit A).

            FSA Handbook 7-CN, Amend. 40, paragraph 242.6, dated
            September 30, 1998, provided, in part, that quantities claimed on form CCC-
            709 could not also be included on form CCC-Cotton AA. The forms CCC-709
            were used to claim benefits on cotton that went directly from the field to the gin
            where beneficial interest in the cotton was lost. The forms CCC Cotton-AA
            were to be used to claim benefits on cotton for which the producer retained
            beneficial interest.

            The audit disclosed the existence of forms CCC-Cotton AA and forms CCC-
            709 covering the same bales of cotton for seven of eight cotton producers
            included in our review. For example, one of the producers completed a form
            CCC-709 to include all of the sold 1998 crop cotton production from one farm.
            The form showed a request and approval date of September 28, 1998. On
            November 20, 1998, the producer completed a form CCC-Cotton AA to
            support a claim for LDP benefits on 106,737 pounds of cotton produced on
            this farm. The producer received LDP benefits of $10,407 based on the LDP
            rate of $0.098 in effect on November 20, 1998. The producer should have
            been paid based on the LDP rate in effect on the dates the cotton was ginned
            and would have resulted in $4,990.04 less in payment.


USDA/OIG-A/03601-17-KC                                                             Page 16
            The producer had a ginning contract, dated December 12, 1997, for the bales
            of cotton produced. The ginning dates shown on the bale listing ranged
            between October 16, 1998, and November 5, 1998. As such, the subject
            producer lost beneficial interest in the cotton prior to completion of the form
            CCC-Cotton AA, dated November 20, 1998. Therefore, we determined that
            the LDP benefits should have been limited to $5,417.89 as shown in the
            following table:

                                                                            RESEARCH AND
               GINNING            POUNDS              EFFECTIVE           PROMOTION FACTOR                    LDP
                DATES             GINNED              LDP RATE                                              AMOUNT*
              10/16/98
                 –                  67,605              $0.0454                     0.995                  $3,053.92
              10/21/98
              10/25/98
                 –                  31,768              $0.0587                     0.995                  $1,855.46
              10/28/98
              11/05/98              7,364               $0.0694                     0.995                   $ 508.51
                Total             106,737                 NA                         NA                    $5,417.89

            * Pounds ginned multiplied by the effective LDP rate multiplied by the research and promotion factor.


            CO personnel advised us that they believed their actions were justified on the
            basis that the producer had not lost beneficial interest in the cotton at the time
            of ginning. However, national office personnel advised us that producers lost
            beneficial interest in the cotton on the ginning date.
            Similar conditions were noted for 21 other cotton producers included in our
            review.    Those producers received erroneous disbursements totaling
            $90,614.78.

                                  Instruct the Missouri STO to direct the Stoddard
 RECOMMENDATION NO. 11            CO to notify all cotton producers in the county that
                                  the practice of allowing producers to complete
                                  forms CCC-Cotton AA and forms CCC-709 for
       the same bales was incorrect and will not be allowed in the future.

            FSA Response

            The written comments on the draft report (see exhibit D) showed that FSA
            planned to direct the Missouri STO to advise their counties of the
            requirements for filing LDP applications by November 2000.

            OIG Position

            We concur with the management decision.

USDA/OIG-A/03601-17-KC                                                                                        Page 17
                                     Instruct the Missouri STO to require the Stoddard
 RECOMMENDATION NO. 12               CO to recover the overpayments and disburse
                                     the additional amounts due the applicable
                                     producers cited in the Statement of Conditions.

           FSA Response

           The written comments on the draft report (see exhibit D) showed that FSA
           planned to follow up on the audit recommendation by November 2000.

           OIG Position

           We concur with the management decision.




USDA/OIG-A/03601-17-KC                                                     Page 18
EXHIBIT A - SUMMARY OF MONETARY RESULTS

  FINDING                                  MONETARY
    NO.          DESCRIPTION                AMOUNT           CATEGORY
     2       Required reasonableness     $    96,008.57   Questioned Costs –
               tests not performed                            Recovery
                                                           Recommended
     2       Required reasonableness         102,304.12   Questioned Loans –
               tests not performed                            Recovery
                                                           Recommended
     2       Required reasonableness          16,323.82    Underpayments
                tests not performed
     3      Noncompliance with program        10,398.26   Questioned Costs –
                   requirements                               Recovery
                                                            Recommended
     3      Noncompliance with program        12,710.42   Unsupported Costs –
                  requirements                                Recovery
                                                            Recommended
     3      Noncompliance with program          435.00      Underpayments
                   requirements
     5         Producers improperly
              allowed to submit forms         94,702.70   Questioned Costs –
             CCC-Cotton AA and forms                          Recovery
            CCC-709 for the same bales                     Recommended
     5         Producers improperly
              allowed to submit forms           902.12      Underpayments
             CCC-Cotton AA and forms
            CCC-709 for the same bales
   Total                                 $   333,785.01




USDA/OIG-A/03601-17-KC                                                 Page 19
EXHIBIT B – AUDIT SITE LOCATIONS




                               Major Lake s
                         U S C ounties
                               Macoupin Cty, IL
                               Ta zew ell Cty, IL
                               Ja sper Cty, IA
                               Plymou th Ct y, I A
                               Fa ribault Cty, MN
                               N obl es C ty, MN
                               D aviess Cty, MO
                               Saline C ty, MO
                               Stod dard C ty, MO
                               C ass C ty, ND
                               R ichla nd Cty, ND
                               Gaf ield C ty, OK
                               Te xas C ty, OK
                               D allam C ty, TX
                               Gai nes C ty, TX
                               H ale Ct y, T X
                               Linco ln C ty, WA
                               Wh it man Cty, WA
                               U S State s




USDA/OIG-A/03601-17-KC                               Page 20
EXHIBIT C – AUDIT SCOPE DATA

                             UNIVERSE OF                         NO. OF PRODUCERS
                             PRODUCERS                         CLAIMING BENEFITS ON
                            RECEIVING 1998   NO. REVIEWED   YIELDS WHICH APPEARED TO       NO.
    STATE        COUNTY       CROP LDP                          EXCEED ASSOCIATED       REVIEWED
                              BENEFITS                       COUNTY AVEREAGE YIELD
    Illinois    Macoupin       1,912             13                   142                  9
                Tazewell       1,995             14                   317                 12
    Iowa         Jasper        1,503             25                   167                 21
                Plymouth       1,694             22                   458                 14
  Minnesota     Faribault      1,031             19                    46                 13
                 Nobles        1,459             22                   575                 16
   Missouri     Daviess          772             29                   117                 19
                 Saline        1,632             16                   178                 11
                Stoddard       1,299             32                   325                 24
 North Dakota     Cass         1,268             20                   158                 12
                Richland       1,043             19                   152                 17
  Oklahoma      Garfield       1,844             10                   773                  9
                 Texas         1,584             10                   236                  8
    Texas        Dallam          365             15                   176                 13
                 Gaines          843             14                   151                 11
                  Hale         1,785             16                   288                 15
 Washington      Lincoln       1,991             25                   279                 20
                Whitman        2,419             15                   767                 11
    Total                     26,439            336                5,305                 255




USDA/OIG-A/03601-17-KC                                                                 Page 21
EXHIBIT D – FSA RESPONSE TO THE DRAFT REPORT




USDA/OIG-A/03601-17-KC                         Page 22
USDA/OIG-A/03601-17-KC   Page 23
USDA/OIG-A/03601-17-KC   Page 24
USDA/OIG-A/03601-17-KC   Page 25
                                    ABBREVIATIONS

CCC
 Commodity Credit Corporation                       ......................................................................................i

CO
 County Office           ...............................................................................................................2

COC
 County Committee                .......................................................................................................1

FSA
 Farm Service Agency                   ...................................................................................................i

LDP
 Loan Deficiency Payment                      ............................................................................................i

NASS
 National Agricultural Statistics Service                        ........................................................................ii

STO
 State Office          ..................................................................................................................2




USDA/OIG-A/03601-17-KC                                                                                                      Page 26
